           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   PARTNERSHIP FOR STRONG FAMILIES,
  AN ORGANIZATIONAL REPRESENTATIVE
             PAYEE FOR THE
    SOCIAL SECURITY ADMINISTRATION

     March 2008    A-04-07-17084




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 14, 2008                                                                Refer To:

To:        Paul D. Barnes
           Regional Commissioner
             Atlanta

From:      Inspector General

Subject:   Partnership for Strong Families, an Organizational Representative Payee for the Social
           Security Administration (A-04-07-17084)


           OBJECTIVE

           Our objectives were to determine whether Partnership for Strong Families
           (Partnership), as a representative payee for the Social Security Administration (SSA),
           (1) had effective safeguards over the receipt and disbursement of Social Security
           benefits and (2) used and accounted for Social Security benefits in accordance with
           SSA policies and procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these individuals’
                                                                                             1
           benefit payments. A representative payee may be an individual or an organization.
           SSA selects representative payees for Old-Age, Survivors and Disability Insurance
           (OASDI) beneficiaries and Supplemental Security Income (SSI) recipients whom it
           believes would best serve the individual’s interests. 2

           The Agency considers various factors in appointing representative payees for children
           in foster care. SSA policy indicates a parent or relative may be chosen as payee, even
           in a foster care situation. 3 SSA acknowledges that, while the social agency is often the

           1
            The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C §§ 405(j)(1)(A) and
           1383(a)(2)(A)(ii).
           2
             20 C.F.R. §§ 404.2021 and 416.621. OASDI and SSI benefits are also referred to as Title II and
           Title XVI, respectively.
           3
               Program Operations Manual System (POMS), GN 502.159.C.6.
Page 2 – Paul D. Barnes


best payee choice, this may not always be the case. Among the factors SSA considers
in making its decision about who will be the best payee in these situations, is why the
child was placed in foster care and whether there are family members who show a
strong concern for the child. In addition, the Agency considers whether the foster care
placement is expected to be temporary or long-term.

Florida’s Foster Care Program

Florida’s child welfare program provides services to abused and neglected children.
The program serves children and families in their homes, as well as children who have
been placed in foster care. Foster care settings include licensed foster homes,
residential facilities, and homes of relatives or other approved individuals.

Before 1999, Florida’s Department of Children and Families (DCF) provided foster care
and related services through a mix of State employees and private providers. However,
the 1998 Florida Legislature mandated that DCF privatize the foster care program by
contracting with community-based lead agencies. These lead agencies assumed many
of the management and operational responsibilities that were previously performed by
the State. DCF is still responsible for overseeing the program and continues to operate
the abuse hotline and perform child protective investigations.

In 2005, Florida completed the transition to community-based foster care. As of
April 2005, 22 community-based lead agencies had assumed responsibility for
providing child welfare services throughout the 15 State districts and the State
Suncoast Region. 4 With few exceptions, one lead agency serves only one district.
Before the transition, DCF served as the representative payee for Florida foster care
children receiving SSA benefits.

Partnership

Partnership is a nonprofit organization located in Gainesville, Florida. It provides child
welfare services to District 3, an 11-county area in North Central Florida. In July 2004,
Partnership began operations under a 3-year contact with DCF that initially totaled
about $65 million. Because the contract is cost-based and contingent upon the
availability of State funds, the total amount of the contract is subject to change. In the
first year of the contract, the State paid Partnership $19.9 million; in the second year,
Partnership received about $24.3 million; and, in the final year, Partnership received
about $26.6 million—for a total of $70.8 million. About 1 year into the contract,
Partnership provided foster care and related services to about 1,700 children a month.
During the contract, the number of children the organization served continued to
increase—and, by the end of the contract, Partnership was providing care to about
2,000 children a month. Partnership and DCF amended the initial contract to add an
additional year at the same level of funding as the previous year.


4
 The Suncoast Region consists of six Florida counties: Pasco, Pinellas, Hillsborough, Manatee,
Sarasota, and DeSoto.
Page 3 – Paul D. Barnes


In July 2005, Partnership became the representative payee for the foster children
assigned to it who were receiving SSA benefits.

States Can Use SSA Benefits to Offset the Cost of Foster Care

In February 2003, the U.S. Supreme Court found that the use of Title II and/or Title XVI
payments to reimburse States’ expenditures for child support services was appropriate,
                                                          5
when the State was acting as the representative payee. As a result of the ruling,
Florida’s DCF is entitled to SSA benefits to offset the cost of care provided to children in
its foster care program. However, because Florida’s foster care program is now
community-based and services are managed by contractors, DCF no longer performs a
detailed accounting of foster children’s SSA benefits. This accounting function has
been transitioned to its community-based contractors. When we selected our audit
sample, Partnership was the representative payee for about 80 SSA beneficiaries and
was responsible for receiving and accounting for their SSA benefits.

In general, the standard rates at which Partnership reimburses foster parents for the
cost of a foster child’s care is less than the maximum Title XVI monthly payment. For
our audit period, the standard monthly rates at which Partnership reimbursed foster
parents ranged from $429 to $515, depending on the child’s age. In 2005 and 2006,
the maximum Title XVI payment for an individual was $597 and $603, respectively.
When the cost of care is less than the Title XVI payment, Partnership remits to DCF the
amount reimbursed to the foster parent, and the difference is conserved for the child’s
personal needs. In circumstances where a foster child needs special care, the monthly
cost of care may exceed the Title XVI payment. When this occurs, Partnership remits
to DCF the entire Title XVI payment less $30 conserved for the child’s personal needs.
The following diagram details the movement of funds between DCF, Partnership, SSA,
a foster parent, and the child’s conserved funds account.




5
 Washington State Department of Social and Health Services et al., Petitioners v. Guardianship Estate of
Danny Keffeler et al, 537 United States Reports 371, 2003.
Page 4 – Paul D. Barnes


      Diagram 1: Example of One Title XVI Payment for a Foster Care Child

                                      Foster Parent
                                       for an SSA
                                        Recipient


                                                $455 Foster
                                                Care Payments
                                                (DCF Funds)

                                       Partnership
                Foster Care Funding                         $603 Payment     SSA
                                         An SSA
        DCF                           Representative                       Title XVI
                    $455 in               Payee                            Payment
                    Title XVI
                    Payments
                                              $148 of
                                              Title XVI Funds


                                       Recipient’s
                                       Conserved
                                         Funds




RESULTS OF REVIEW
Partnership generally had adequate internal controls for the receipt and disbursement
of Social Security payments. Overall, transactions had proper authorization and were
completed with adequate segregation of duties. Also, except for several transactions
that lacked documentation, we determined that SSA payments were either used for the
children’s care or saved on their behalf.

However, Partnership could have better managed SSA recipients’ conserved (or saved)
funds. The organization occasionally reported excess conserved funds to SSA when
the recipients’ countable resources were not over the $2,000 Title XVI resource limit.
Accordingly, SSA deemed the recipients ineligible and posted overpayments to their
accounts—and, in one case, suspended their benefits. In total, SSA posted $11,307 in
overpayments for eight recipients and suspended payments totaling $1,206 for one of
the eight. For seven of the eight recipients, Partnership incorrectly included retroactive
payments as a countable resource, causing the recipients to appear to be over the
resource limit. Additionally, for four of the eight recipients, Partnership reported the
actual cash account balances, when the balances should have been offset by funds
due DCF for foster care services.

Further, Partnership did not always provide children with additional spending
allowances from their available conserved funds. For 22 (44 percent) of the
50 sampled beneficiaries, the conserved funds balances averaged about $1,800. Our
beneficiary visits noted that foster care parents would welcome additional spending
Page 5 – Paul D. Barnes


money for the children’s personal needs. Given these relatively large account
balances, we believe Partnership should disburse more of the conserved funds to foster
care parents for the children’s personal needs, as appropriate.

Finally, Partnership could not provide documentation to support $2,006 in expenses
paid with SSA funds. Without proper receipts, we were unable to determine whether
funds were used for the recipients.

CONSERVED FUNDS COULD BE BETTER MANAGED

As shown in Table 1, Partnership could have better managed SSA recipients’
conserved funds. The organization occasionally reported excess conserved funds to
SSA when the recipients’ countable resources were not over the $2,000 Title XVI
resource limit.

    Table 1: Partnership’s Errors in Managing Recipients’ Conserved Funds

                                   Number of           Benefits             Resulting
           Type of Error           Recipients         Returned to         Suspension of
                                    Affected          SSA in Error          Payments
         Retroactive
         Payments Included
         in Conserved Fund                7                    $7689                  $1,206
         Balance

         Payments Owed
         DCF included in
                                          4                     3,618                        0
         Conserved Fund
         Balance

         Total                        See Note               $11,307                  $1,206
         Note: Only a total of eight recipients were affected by errors in their conserved
         fund balances. Some recipients had both types of conserved fund errors during
         the audit period but in different months. Specifically, three of the seven recipients
         had an error related to “retroactive payments” and also had a subsequent error
         due to “Payments Owed DCF.”


Excess Resources Reported to SSA in Error

Partnership did not always correctly report Title XVI recipients’ excess funds to SSA.
For 7 (14 percent) of 50 sampled beneficiaries, Partnership reported excess conserved
funds when the recipients’ countable resources were not yet over SSA’s resource limit.
As a result, SSA posted overpayments to each of the seven recipients’ accounts and
suspended one of the individuals’ payments. Specifically, SSA posted $7,689 in
Page 6 – Paul D. Barnes


overpayments for months Partnership reported the recipients’ resources were over the
limit and suspended 2 months of payments totaling $1,206. The suspended payments
were eventually remitted.

Representative payees generally maintain recipients’ unspent or saved Social Security
payments in bank accounts for later use. These saved payments are referred to as
                                                                 6
conserved funds. When a Title XVI recipient’s total resources, exceed $2,000, the
representative payee is required to notify SSA that the limit has been reached. 7 After
SSA is notified, Title XVI payments are suspended until SSA determines or is notified
the recipient’s resources have dropped below the limit. 8 In each of the seven cases,
the conserved fund account balances exceeded the $2,000 limit. However, SSA policy
allows a representative payee 9 months to spend retroactive payments 9 before they are
counted as a resource. 10 For each of the seven individuals, Partnership reported
conserved fund balances without deducting the non-countable, retroactive payments
that had been deposited into the accounts.

For example, one recipient had conserved fund balances that appeared to exceed the
resource limit in 2 separate months. However, when the receipt of a $579 retroactive
payment was properly excluded from the respective months’ balances, the individual’s
countable resources were below the $2,000 limit.

Partnership officials explained that the conserved funds were reported in error because
former staff had limited knowledge of SSA’s policy on this issue. We notified SSA’s
Gainesville, Florida, field office of these instances so corrective action could be taken.

Excess Resources Should Not Have Been Reported to SSA

For four beneficiaries (three of whom are also included in the previous section),
Partnership also incorrectly reported and returned an additional $3,618 in
overpayments to SSA. Although the recipients’ bank account balances technically
exceeded the $2,000 Title XVI resource limit, their ledger accounts did not accurately
reflect obligations they owed to DCF for foster care payments. Partnership reported the
actual bank account balances when it should have deducted the amount owed to DCF
from the balances. Had the ledger accounts reflected the funds due DCF, these four
recipients would not have exceeded the resource limit. Instead, because the accounts
were reported as periodically over the resource limit, SSA posted $3,618 in
6
 Resources are cash and any other personal property that an individual owns, has the right, authority, or
power to convert to cash, and is not legally restricted from using for his/her support maintenance.
7
    POMS, SI 01110.003 (A)(1).
8
    Id.
9
 POMS, SI 01130.600(A)(1). Retroactive benefits are benefits paid after the month in which they were
due. Occasionally, SSA may not release benefits in the month they are due because a discrepancy exists
on the beneficiary’s record. When the discrepancy is cleared, all benefits past due are paid.
10
     POMS, SI 01130.600(B)(1).
Page 7 – Paul D. Barnes


overpayments to the children’s records. In trying to resolve the overpayments,
Partnership returned what it believed to be the overpayments to SSA. Also, related to
our finding, an August 30, 2006 DCF report stated that Partnership returned over
$51,000 in Title XVI payments to SSA for overpayments caused from reporting excess
conserved funds.

DCF provides Partnership the funds to make foster care payments. However, all or a
portion of the States’ foster care costs for children receiving Title XVI payments can be
offset by the Social Security benefit. As such, Partnership is responsible for remitting to
DCF the Title XVI payments it receives as the representative payee. Although
Partnership received monthly Title XVI payments, it did not always send the payments
to DCF within the required 30 days. At the beginning of our audit period, Partnership
remitted the Title XVI payments to DCF quarterly, not monthly.

By the end of our audit period, we observed that Partnership was remitting Title XVI
payments to DCF monthly. However, despite this improvement, we noted the
remittance due DCF for September 2006 (the final month of our audit period) was not
made on time and was not reflected in the recipient ledger accounts. To ensure their
foster children’s Title XVI payments are not suspended or deemed overpaid because of
excess resources, Partnership should ensure Title XVI funds are remitted to DCF
monthly and properly accounted for.

CHILDREN DID NOT ALWAYS RECEIVE PERSONAL SPENDING ALLOWANCES
FROM AVAILABLE SSA CONSERVED FUNDS

Partnership did not provide 22 (44 percent) of the 50 sampled beneficiaries with
spending allowances from their available conserved funds. The conserved fund
balance for the 22 children averaged $1,800 during our audit period. The conserved
fund balances consisted primarily of SSA funds inherited from DCF (the previous
representative payee), SSA retroactive payments and Partnership monthly personal
benefit set asides.

SSA requires that a representative payee ensure payments are made to meet a
beneficiary’s immediate and reasonably foreseeable day-to-day needs for food and
housing. 11 In addition, for a beneficiary residing in a facility that receives substantial
reimbursement for the individual, SSA requires a minimum $30 monthly spending
allowance be set aside from the Title XVI payments for the individual’s personal
needs. 12 Many States also set aside a minimum of $30 from Title XVI payments as a
spending allowance for children in foster care. Partnership set aside such personal
spending allowances for its foster care children.

Although Partnership sends checks each month to foster parents for the children’s
basic care, additional monies could be used for the children’s other needs. From our

11
     POMS, GN 00602.001(A)(2).
12
     POMS, GN 00602.010(B)(2).
Page 8 – Paul D. Barnes


visits to foster homes, it was evident that household money was not abundant and that
any additional funds for a child’s clothing, school supplies and activities, entertainment,
and more, would be gladly welcomed. Further, several foster home parents stated they
used monies intended for basic home care for the child’s personal needs, not knowing
that conserved funds were available for this purpose.

As of July 31, 2007, Partnership had $172,000 in SSA conserved funds for 80 children,
as detailed in Table 2 below.

 Table 2: Detail of Large Conserved Fund Balances for Beneficiaries/Recipients
                             in Partnership’s Care

    Number of                Type of SSA            Total Amount of         Average
  Affected Foster         Benefits/Payments           Conserved            Conserved
   Care Children          Received at Time of          Funds for         Funds Per Child
                              Our Audit                 Affected
                                                       Children

          46            Title XVI                             $86,436               $1,879

          31            Title II                              $83,097               $2,680

          3             No benefits/payments                   $2,467                 $822
                        received at time of audit


Partnership explained that many of the foster care children qualify and receive a
$300 annual State supplemental benefit to be used for personal spending, primarily
clothing for school. Eligibility for this benefit may have caused some confusion on how
the SSA conserved funds should be distributed. Given the relatively large SSA
conserved fund account balances maintained by Partnership, we believe more
conserved funds should be disbursed to foster care parents for the children’s personal
needs, as appropriate. Accordingly, we believe the organization should work closely
with foster parents to identify children’s potential needs or wants that may be fulfilled
using the children’s conserved funds.

BENEFICIARY/RECIPIENT EXPENSES NOT ALWAYS SUPPORTED

Partnership did not always maintain supporting documentation for expenditures paid
with SSA funds. For 7 (13.4 percent) of the 52 transactions tested, Partnership could
not provide adequate documentation to support the expenditures. The transactions
totaled $2,006. Because the organization could not provide proper receipts for these
transactions, we were unable to determine whether funds were used for the
beneficiaries/recipients.

SSA requires that representative payees keep accurate and complete records to show
the amount of payments received and how the money was used. Supporting
Page 9 – Paul D. Barnes


documentation for expenses was lacking primarily because Partnership did not always
collect or retain receipts for personal allowances or personal needs.

CONCLUSION AND RECOMMENDATIONS
Generally, Partnership met its representative payee responsibilities. However, the
organization needs to improve its management and reporting of recipients’ conserved
funds. Partnership should also ensure beneficiaries/recipients receive personal
spending allowances from their available conserved fund balances, when appropriate.
Finally, Partnership should ensure documentation is maintained to substantiate
expenses paid with SSA payments.

We recommend that SSA:

1.   Reimburse the eight Title XVI recipients $11,307 in monthly benefits that
     Partnership incorrectly returned to SSA. This amount includes the benefits
     Partnership returned because it mistakenly concluded the recipients’ resources
     exceeded Title XVI limits.

2.   Ensure Partnership better manages recipients’ conserved fund accounts so
     balances (1) do not exceed the Title XVI resource limit or (2) are not incorrectly
     reported as exceeding the limit.

3.   Instruct Partnership to work closely with foster parents to identify children’s needs
     or wants that could be fulfilled using their SSA conserved funds.

4.   Ensure Partnership disburses SSA conserved funds, as appropriate, to help foster
     parent’s meet their children’s more personal needs. At a minimum, Partnership
     should disburse the $30 personal needs allowance that is withheld monthly from
     SSA payments.

5.   Instruct Partnership to ensure all documentation is maintained to corroborate
     expenditures for beneficiary’s personal needs that are paid for with SSA
     conserved benefits.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS

SSA and Partnership agreed with our recommendations. In addition, Partnership’s
response included a letter from Florida’s DCF that addressed the Title IV-E waiver issue
we presented in the Other Matter section of this report. The letter provides an
explanation of the waiver’s effect and how DCF accounts for and uses Title IV-E
funding. We appreciate DCF’s explanation; however, additional clarification is needed
to articulate how Title IV-E waivers impact the requirement to offset Title IV-E payments
against Title XVI payments.
Page 10 – Paul D. Barnes


See Appendix C for the full text of SSA’s comments and Appendix D for the full text of
Partnership’s comments.

OTHER MATTER

FEDERAL FOSTER CARE WAIVER

In April 2006, the Department of Health and Human Services, Administration for
Children and Families, granted Florida’s DCF a 5-year waiver under Title IV-E of the
Social Security Act. 13 Effective October 2006, the waiver allows Federal foster care
funds to be used for any child welfare purpose, instead of being restricted to
out-of-home care, as generally required under Federal law. Under the waiver, funds
can be used for a variety of child welfare services including abuse prevention, in-home
services, and family reunification. The increased flexibility in funding allowed by the
waiver is expected to result in improved services for Florida families. In general, the
waiver will enable Florida to:

•     Spend Title IV-E funds for children and families who are not normally eligible under
      Part E.

•     Eliminate calculations to obtain Federal funds for foster care maintenance
      expenses.

•     Pay for services that that are not normally covered under Part E.

During the 5-year waiver period, Florida will receive Federal funding based on what it
would have received under the Title IV-E rules for the fiscal year ended
September 30, 2005—with 3-percent annual increases. An independent evaluator will
assess the waiver’s overall effectiveness.

According to SSA policy, Title IV-E foster care benefits are considered needs based
                                                                         14
income for beneficiaries who also receive SSA’s Title XVI payments. The policy
further states that Title XVI payments must be dollar-for-dollar reduced by income
derived from Title IV-E (foster care) benefits. 15 Before the Title IV-E Waiver, Florida’s
DCF made a separate accounting of foster care children that received Title XVI
payments. For these children, DCF had procedures that ensured Title IV-E benefits
were not used to reimburse the cost of foster care. As such, Title XVI payments were
not offset by Title IV-E benefits.

At the time of our audit, DCF received funding from several sources–the State, Federal
Social Services Grants, and Title IV-E. DCF then funded the community-based lead
13
     The Social Security Act § 470 et seq., 42 U.S.C. § 670 et seq.
14
     POMS, SI 00830.410(C)(1)(a).
15
     POMS, SI 00830.170(B).
Page 11 – Paul D. Barnes


agencies for the cost of foster care services. However, in this funding process, the
identity of funds used for each child is not tracked. As a result, in practice, the cost of
care for each foster child is reimbursed by both Title IV-E and Title XVI funds.
Accordingly, the commingled funding may result in a situation that would require
Title XVI funding to be reduced by the amount of Title IV-E funding.

In recent years, Florida DCF has received about $10 million a year in Title XVI funds as
reimbursement for the cost of foster care.

As the DCF continues to operate under the Title IV-E waiver, we believe additional
clarification is needed to ensure that the waiver is properly implemented in accordance
with regulations and policies.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Representative Payee Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
DCF           Department of Children and Families
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
Partnership   Partnership for Strong Families
POMS          Program Operations Manual System
SSA           Social Security Administration
SSI           Supplemental Security Income
                                                                      Appendix B

Scope and Methodology
Our audit covered the period October 1, 2005 through September 30, 2006. To
accomplish our objectives we:
•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Queried SSA’s Representative Payee System for a list of individuals who were in
    the care of Partnership for Strong Families (Partnership) as of September 30, 2006
    and who left the organization’s care after October 1, 2005.

•   Obtained from Partnership a list of individuals who were in its care as of
    September 30, 2006 and who left the organization’s care after October 1, 2005.

•   Compared and reconciled the Representative Payee System list to Partnership’s list
    to identify the population of SSA beneficiaries who were in the representative
    payee’s care from October 1, 2005 through September 30, 2006.

•   Reviewed Partnership’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly selected a sample of 50 beneficiaries from a population of
    140 beneficiaries who were either in Partnership’s care from October 1, 2005
    through September 30, 2006 or who had left its care before September 30, 2006.

•   For the 50 selected beneficiaries, we performed the following tests.
    o Compared and reconciled benefit amounts received according to Partnership’s
      records to benefit amounts paid according to SSA’s records.
    o Reviewed Partnership’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.
    o Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Visited and interviewed a sample of beneficiaries to determine whether their basic
    needs were being met.

•   Reviewed a sample of Representative Payee Applications (Form SSA-11-BK) to
    determine the completeness and appropriateness of the information provided on the
    applications.




                                           B-1
We determined the data we obtained and analyzed were sufficiently reliable to meet the
objectives of our review. We performed our review in Atlanta, Georgia, and Gainesville,
Florida, from November 2006 to September 2007. The SSA component reviewed was
the Office of the Deputy Commissioner for Operations. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                         B-2
                  Appendix C

Agency Comments
                          SOCIAL SECURITY
MEMORANDUM

Date:      February 5, 2008

To:        Office of the Inspector General
           Atlanta Office of Audit

From:      Regional Commissioner
           Atlanta

Subject:   OIG Draft Report, "PARTNERSHIP FOR STRONG FAMILIES, REP
           PAYEE FOR SSA", AUDIT NO. 22007010 - REPLY

The Atlanta Region appreciates the opportunity to review and comment on the OIG
Draft Report, "PARTNERSHIP FOR STRONG FAMILIES, REP PAYEE FOR SSA",
AUDIT NO. 22007010. We have reviewed the draft report. Many of the findings by
OIG are the same or very similar to the findings from the local field office's (FO's)
initial and follow-up reviews. We will continue to work with the organization and
provide any resource, training, or education to support their compliance with SSA's
representative payee rules and regulations.

Based on the results of this audit, we agree with all five of OIG's recommendations
to the Agency. We are providing the following additional comments:

Recommendation 1

Reimburse the 8 Title XVI recipients $11,307 in monthly benefits that Partnership
incorrectly returned to SSA. This amount includes the benefits Partnership returned
because it mistakenly concluded the recipients’ resources exceeded Title XVI limits.

SSA Comment

OIG has provided the local FO with the names and account numbers of the Title XVI
recipients impacted and immediate action has been taken to reimburse each
recipient.

Recommendation 2

Ensure Partnership better manages recipients’ conserved fund accounts so that
balances (1) do not exceed the Title XVI resource limit or (2) are not incorrectly
reported as exceeding the limit.



                                         C-1
SSA Comment

We concur with this recommendation and have no additional comments.

Recommendation 3

Instruct Partnership to work closely with foster parents to identify children’s needs or
wants that could be fulfilled using their SSA conserved funds.

SSA Comment
During the local FO's initial and follow-up reviews, we determined that there was no
standard or uniform communication procedure. Foster parents do not have a
means of communicating with the Partnership's accounting department or staff to
request additional funds. During our interviews with the foster parents, many allege
that they had no knowledge of whom to contact; nor did they know the procedure for
requesting funds or other personal items for the children. We recommended
Partnership revisit, redefine, and share their policy/procedures with foster parents so
that they know how to request funds or items for children in their care. Provided
conserved funds are available, we advised Partnership that additional funds should
be released to foster parents for necessary and reasonable expenditure requests.
Recommendation 4
Ensure Partnership disburses SSA conserved funds, as appropriate, to help foster
parents meet their children’s more personal needs. At a minimum, Partnership
should disburse the $30 personal needs allowance that is withheld monthly from
SSA payments.
SSA Comment
We concur with this recommendation and have no additional comments.
Recommendation 5
Instruct Partnership to ensure all documentation is maintained to corroborate
expenditures for beneficiaries’ personal needs that are paid for with SSA conserved
benefits.

SSA Comment
We concur with this recommendation and have no additional comments.
If you have any questions concerning these comments, please contact Vera
Goodridge of the RSI Programs Team at 404-562-2453.
                                               /s/
                                       Paul D. Barnes
                                       Regional Commissioner




                                         C-2
                                Appendix D

Representative Payee Comments
D-1
D-2
D-3
D-4
      be         cat      cobj_t_gr   COBJ Name                     oca     Total QTD Expenditures 063007    Percent     Federal Share QTD 063007        State Share QTD 063007
      60910304   108304   CFVNGFAA    Non Grant Related             LC0TH                       1,809,535.98                                       0.00                1,809,535.98
      60910304   108304   CFVNGFAA    Non Grant Related             LCFH0                     10,945,882.84                                        0.00               10,945,882.84
      60910304   108304   CFVNGFAA    Non Grant Related             LCRGE                     12,862,235.19                                        0.00               12,862,235.19
                                      Sub-total Non Grant Related                             25,617,654.01       48.85%                           0.00               25,617,654.01
      60910304   108304   PNV07G1E    Waiver                        LC0TH                               0.00                                (321,809.00)                 321,809.00
      60910304   108304   PNV07GPA    Waiver                        LC0TH                       1,057,084.00                               1,057,084.00                        0.00
      60910304   108304   PNV07GPA    Waiver                        LCFH0                       6,394,300.92                               6,394,300.92                        0.00
      60910304   108304   PNV07GPA    Waiver                        LCRGE                       7,513,784.25                               7,513,784.25                        0.00
                                      Sub-total Waiver                                        14,965,169.17       28.54%                                              14,965,169.17
      60910304   108304   PSS07GAA    SSBG2                         LC0TH                         837,313.15                                 837,313.15                        0.00
      60910304   108304   PSS07GAA    SSBG2                         LCFH0                       5,064,907.07                               5,064,907.07                        0.00
      60910304   108304   PSS07GAA    SSBG2                         LCRGE                       5,951,646.55                               5,951,646.55                        0.00
                                      Sub-total SSBG2                                         11,853,866.77       22.61%                                              11,853,866.77
                                      Total 063007                                            52,436,689.95      100.00%                                              52,436,689.95

      be         cat      cobj_t_gr   COBJ Name                     oca     Total QTD Expenditures 093007    Percent     Federal Share QTD 093007        State Share QTD 093007
      60910304   108304   CFVNGFAA    Non Grant Related             LC0TH                       1,067,712.99                                       0.00                1,067,712.99
      60910304   108304   CFVNGFAA    Non Grant Related             LCFH0                     11,653,166.70                                        0.00               11,653,166.70
      60910304   108304   CFVNGFAA    Non Grant Related             LCRGE                     15,974,929.29                                        0.00               15,974,929.29
                                      Sub-total Non Grant Related                             28,695,808.98       52.42%                           0.00               28,695,808.98
      60910304   108304   PNV07G1E    Waiver                        LC0TH                               0.00                                (151,302.00)                 151,302.00
      60910304   108304   PNV07GPA    Waiver                        LC0TH                         607,700.12                                 513,832.55                   93,867.57
      60910304   108304   PNV07GPA    Waiver                        LCFH0                       6,806,042.54                               5,629,788.01                1,176,254.53
      60910304   108304   PNV07GPA    Waiver                        LCRGE                       9,092,299.14                              10,363,547.75               (1,271,248.61)
                                      Sub-total Waiver                                        16,506,041.80       30.15%                  16,355,866.31                  150,175.49




D-5
      60910304   108304   PSS07GAA    SSBG2                         LC0TH                         354,984.72                                 280,632.46                   74,352.26
      60910304   108304   PSS07GAA    SSBG2                         LCFH0                       3,874,351.95                               2,942,644.17                  931,707.78
      60910304   108304   PSS07GAA    SSBG2                         LCRGE                       5,311,217.14                               6,318,169.46               (1,006,952.32)
                                      Sub-total SSBG2                                           9,540,553.81      17.43%                   9,541,446.09                     (892.28)
                                      Total 093007                                            54,742,404.59      100.00%                  25,897,312.40               28,845,092.19

      be         cat      cobj_t_gr   COBJ Name                     oca     Total QTD Expenditures 123107    Percent     Federal Share QTD 123107        State Share QTD 123107
      60910304   108304   CFVNGFAA    Non Grant Related             LC0TH                       1,587,858.31                                       0.00                1,587,858.31
      60910304   108304   CFVNGFAA    Non Grant Related             LCFH0                     13,382,145.83                                        0.00               13,382,145.83
      60910304   108304   CFVNGFAA    Non Grant Related             LCRGE                     13,414,725.65                                        0.00               13,414,725.65
                                      Sub-total Non Grant Related                             28,384,729.79       56.32%                           0.00               28,384,729.79
      60910304   108304   PNV08G1E    Waiver                        LC0TH                               0.00                                (135,590.00)                 135,590.00
      60910304   108304   PNV08GPA    Waiver                        LC0TH                         843,895.77                                 843,895.77                        0.00
      60910304   108304   PNV08GPA    Waiver                        LCFH0                       7,112,180.58                               7,112,180.58                        0.00
      60910304   108304   PNV08GPA    Waiver                        LCRGE                       7,129,495.68                               7,129,495.68                        0.00
                                      Sub-total Waiver                                        15,085,572.03       29.93%                  14,949,982.03                  135,590.00
      60910304   108304   PSS08GAA    SSBG2                         LC0TH                         387,801.20                                 387,801.20                        0.00
      60910304   108304   PSS08GAA    SSBG2                         LCFH0                       3,268,309.00                               3,268,309.00                        0.00
      60910304   108304   PSS08GAA    SSBG2                         LCRGE                       3,276,265.91                               3,276,265.91                        0.00
                                      Sub-total SSBG2                                           6,932,376.11      13.75%                   6,932,376.11                        0.00
                                      Total 123107                                            50,402,677.93      100.00%                  21,882,358.14               28,520,319.79
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1650

   Frank Nagy, Audit Manager, Atlanta Office of Audit, (404) 562-5552

Acknowledgments

In addition to those named above:

   David McGhee, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-07-17084.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
